APPENDIX A
Respondent Northam's Amended Order Sixty-Five (2020) and
Amended Order of Public Health Emergency Six

AMENDED NUMBER SIXTY-FIVE (2020)
AND
AMENDED ORDER OF PUBLIC HEALTH EMERGENCY SIX
PHASE TWO EASING OF CERTAIN TEMPORARY RESTRICTIONS
DUE TO NOVEL CORONAVIRUS (COVID-19)

Importance of the Issue
On May 8, 2020, Executive Order 61 and Order of Public Health Emergency Three began
easing business, gathering, and traveling restrictions originally imposed by Executive Order 53 and
Executive Order 55 issued in March of 2020. We did this because our health data metrics showed
that we were increasing testing availability, we have adequate supply of personal protective
equipment and hospital bed supply, the percentage of positive tests, hospitalizations, and positive
tests were trending downward. The health data metrics for some jurisdictions, however, still
presented sharper challenges. Therefore, pursuant to Executive Order 62 and Order of Public
Health Emergency Four (2020), later amended, the Northern Virginia Region (as defined by that
Order), the County of Accomack, and the City of Richmond remained in Phase Zero. On May 29,
2020, those jurisdictions moved into Phase One.
During the weeks that the majority of Virginia has been in Phase One, the public health
metrics have continued to show the same trends. Our testing is increasing, our supply of personal
protective equipment is steady, our hospital bed capacity remains steady, our hospitalizations
statewide have a slight downward trend, and the percentage of positive tests continue to trend
downward.
Now under this Order, the majority of the Commonwealth will move into Phase Two. The
Northern Virginia Region and the City of Richmond will remain in Phase One under Third
Amended Executive Order 61 and Third Amended Order of Public Health Emergency Three
(2020). We have made remarkable progress over the past several weeks. As we move forward, we
will remain vigilant, cautious, and measured. We will continue teleworking, whenever possible, to
wash our hands frequently, to not touch our faces, and to wear face coverings. Through these

efforts, we will continue to protect ourselves, our families, and our fellow Virginians as we
respond to this emergency.
Effective Friday, 12:00 a.m., June 12, 2020, the Northern Virginia Region and the
City of Richmond shall enter into Phase Two.
Directive
Therefore, by virtue of the authority vested in me by Article V of the Constitution of
Virginia, by § 44-146.17 of the Code of Virginia, by any other applicable law, and in furtherance
of Amended Executive Order 51 (2020), and by virtue of the authority vested in the State Health
Commissioner pursuant to §§ 32.1-13, 32.1-20, and 35.1-10 of the Code of Virginia, the following
is ordered:
A. EASING OF BUSINESS RESTRICTIONS
All Businesses
Any businesses, not listed in this section, should adhere to the Guidelines for All Business
Sectors expressly incorporated by reference herein as best practices. This guidance is
located here.
Restaurants, Dining Establishments, Food Courts, Breweries, Microbreweries,
Distilleries, Wineries, and Tasting Rooms
Restaurants, dining establishments, food courts, breweries, microbreweries, distilleries,
wineries, and tasting rooms may operate delivery, take-out, and indoor and outdoor dining
and beverage services, provided such businesses comply with the Guidelines for All
Business Sectors, and sector-specific guidance for restaurant and beverage services
incorporated by reference herein. Such guidance includes, but is not limited to, the
following requirements:
Occupancy may not exceed the 50% of the lowest occupancy load on the certificate
of occupancy, if applicable.
All parties, whether seated together or across multiple tables, must be limited to 50
patrons or less.
Tables at which dining parties are seated must be positioned six feet apart from
other tables. If tables are not movable, parties must be seated at least six feet apart.
No self-service of food (except beverages), including condiments. Condiments
should be removed from tables and dispensed by employees upon the request of a
customer. Buffets must be staffed by servers. For self-service beverage areas, use
beverage equipment designed to dispense by a contamination-free method.

2

e. Bar seats and congregating areas of restaurants must be closed to patrons except for
through-traffic. Non-bar seating in a bar area may be used for customer seating as
long as a minimum of six feet is provided between parties at tables.
f

Employees working in customer-facing areas must wear face coverings over their
nose and mouth at all times.
A thorough cleaning and disinfection of frequently-contacted surfaces must be
conducted every 60 minutes during operation. Tabletops, chairs, and credit card/bill
folders must be cleaned in between patrons.
If any such business cannot adhere to these requirements, it must close.

3. Farmers Markets
Farmers markets may continue to operate, provided such businesses comply with the
Guidelines for All Business Sectors and the sector-specific guidelines for farmers markets
incorporated by reference herein. Such guidance includes, but is not limited to, the
following requirements:
On-site shopping is allowed, as long as physical distancing guidelines are followed.
Configure operations to avoid congestion or congregation points.
Employees and vendors in customer-facing areas must wear face coverings over
their nose and mouth at all times.
Vendors must supply hand sanitizer stations or hand washing stations for patrons
and employees.
A thorough cleaning and disinfection of frequently-contacted surfaces must be
conducted.
If any such business cannot adhere to these requirements, it must close.
4. Brick And Mortar Retail Businesses Not Listed In Section C, Paragraph 1 (NonEssential Retail)
Any brick and mortar retail business not listed in section C, paragraph 1 may continue to
operate, provided such business complies with the Guidelines for All Business Sectors and
the sector-specific guidance for brick and mortar retail expressly incorporated by reference
herein. Such guidance includes, but is not limited to, the following requirements:
a. Occupancy must be limited to no more than 50% of the lowest occupancy load on
the certificate of occupancy.

3

Employees working in customer-facing areas must wear face coverings over their
nose and mouth at all times.
If any such business cannot adhere to these requirements, it must close.
5. Fitness and Exercise Facilities
Fitness centers, gymnasiums, recreation centers, sports facilities, and exercise facilities may
reopen for indoor and outdoor activities, provided such businesses comply with the
Guidelines for All Business Sectors and the sector-specific guidelines for fitness and
exercise facilities expressly incorporated by reference herein. Such guidance includes, but
is not limited to, the following requirements:
Patrons, members, and guests must remain at least ten feet apart during all
activities.
Instructors and all participants of group exercise and fitness classes must maintain
at least ten feet of physical distancing between each other at all times.
The total number of attendees (including both participants and instructors) in all
group exercise and fitness classes cannot exceed the lesser of 30% of the minimum
occupancy load on the certificate of occupancy or 50 patrons, members, and guests.
Hot tubs, spas, splash pads, spray pools, and interactive play features must be
closed.
Outdoor and indoor swimming pools may be open for lap swimming, diving,
exercise, and instruction only and must be limited to no more than three persons per
lane with ten feet of physical distance per swimmer.
Employees working in customer-facing areas are required to wear face coverings
over their nose and mouth at all times.
Employers must ensure cleaning and disinfection of shared equipment after each
use.
Facilities shall prohibit the use of any equipment that cannot be thoroughly
disinfected between uses (e.g., climbing rope, exercise bands, etc.).
Businesses must supply hand sanitizer stations or hand washing stations for patrons,
members, and guests.
If any such business cannot adhere to these requirements, it must close.

4

6. Personal Care and Personal Grooming Services
Beauty salons, barbershops, spas, massage centers, tanning salons, tattoo shops, and any
other location where personal care or personal grooming services are performed may
continue to operate, provided such businesses comply with the Guidelines for All Business
Sectors and the sector-specific guidelines for personal care and personal grooming services
expressly incorporated by reference herein. Such guidance includes, but is not limited to,
the following requirements:
Occupancy may not exceed 50% of the lowest occupancy load on the certificate of
occupancy with at least six feet of physical distancing between work stations and no
more than two appointments per service provider at a time.
Service providers and employees working in customer-facing areas must wear face
coverings over their nose and mouth at all times.
Provide face coverings for clients or ask that clients bring a face covering with
them, which they must wear during the service. Limit services to only those that can
be completed without clients removing their face covering.
A thorough cleaning and disinfection of frequently-contacted surfaces must be
conducted every 60 minutes in operations, while cleaning and disinfecting all
personal care and personal grooming tools after each use. If that is not possible,
such items must be discarded.
If any such business cannot adhere to these requirements, it must close.
7. Campgrounds
Privately-owned campgrounds as defined in § 35.1-1 of the Code of Virginia may continue
to operate, provided they comply with the Guidelines for All Business Sectors and the
sector-specific guidelines for campgrounds, which are expressly incorporated by reference
herein. Such guidance includes, but is not limited to, the following requirements:
A minimum of 20 feet must be maintained between units for all lots rented for
short-term stays of less than 14 nights (and not owned by individuals).
Employees working in public-facing areas are required to wear face coverings over
their nose and mouth at all times.
It is recommended that campgrounds must strongly encourage customers to wear
face coverings over their nose and mouth.

5

The provision of hand washing in bath houses and sanitizing stations for guests and
employees.
If any such business cannot adhere to these requirements, it must close.
8. Indoor Shooting Ranges
Indoor shooting ranges may operate, provided they comply with the folloWing
requirements:
Occupancy must be limited to 50% of the lowest occupancy load on the certificate
of occupancy with at least six feet of physical distancing between individuals at all
times. Use every other lane to achieve six feet of physical distancing.
Employees working in customer-facing areas are required to wear face coverings
over their nose and mouth at all times.
Perform thorough cleaning and disinfection of frequently-contacted surfaces every
60 minutes in operation, while disinfecting all equipment between each customer
use and prohibiting the use of equipment that cannot be thoroughly disinfected.
Either thoroughly clean shared or borrowed equipment in between uses, or only
allow the use of personal equipment at the range.
If any such indoor shooting range cannot adhere to these requirements, it must
close.
9. Public Beaches
All public beaches as defined in § 10.1-705 of the Code of Virginia may remain open to
individual and family recreational activity, in addition to exercise and fishing. All such
public beaches, with the exception of the beaches in the City of Virginia Beach, must
comply with the requirements below.
Require beachgoers to practice physical distancing of at least six feet between each
person unless they are with members of the same household.
Prohibit gatherings of more than 50 people.
Prohibit group sports, alcohol, tents, groupings of umbrellas, and other activities
and items that attract gatherings.
Prohibit entertainment and programming that generate gatherings.

6

All common areas that encourage gatherings, such as pavilions, gazebos, playsets,
and picnic areas must remain closed. This does not apply to fishing piers.
Implement a cleaning schedule for all high-touch surfaces made of plastic or metal
such as benches and railings that includes cleaning at least every two hours between
the hours of 9 a.m. and 6 p.m.
Establish, train, and deploy a team to educate and promote compliance with beach
rules and refer cases of noncompliance to public safety personnel, if appropriate.
Establish procedures for temporary beach closure or access limitations in the event
of overcrowding.
Ensure adequate personal protective equipment for all lifeguards.
J. Perform a disinfectant-level cleaning of all public restrooms every two hours with
an EPA-approved disinfectant by staff or volunteers trained to follow Centers for
Disease Control and Prevention (CDC) guidance on cleaning and disinfecting.
k. For chair and umbrella rental companies, require vendors to set up chairs and
umbrellas for customers, maintaining at least six feet of distance between groups,
and to clean equipment between rentals following Environmental Protection
Agency and CDC guidelines on cleaning and disinfecting.
1. Post signage at all public access points to the beaches and other "cluster prone"
areas providing health reminders regarding physical distancing, gathering
prohibitions, options for high risk individuals, and staying home if sick. Messaging
must be specific to location.
Locality shall provide daily metrics to its local health department to include beach
closures, complaint incidents, police reports of violence related to enforcement, and
number of reports of noncompliance to be submitted each Monday.
All employees and contract workers must wear a cloth face covering when not able
to practice physical distancing following CDC Use of. Face Cloth Coverings
guidance.
Employees and contract workers must have access to soap and water or hand
sanitizer containing at least 60% alcohol, and locality should provide best hygiene
practices to employees on a regular basis, including washing hands often with soap
and water for at least 20 seconds and practicing respiratory etiquette protocols.
Locality shall require all employees and contract workers to take their
temperature before reporting to work and direct such employees not to report to

7

work if they have a fever of over 100.4 degrees, have experienced chills, or have
been feverish in the last 72 hours.
q. Follow enhanced workplace safety best practices outlined in the Guidelines for All
Business Sectors.
Public beaches in the City of Virginia Beach may continue to operate provided activities on
the public beaches are conducted in compliance with the requirements linked here and here.
10. Racetracks
Outdoor racetracks may remain open for racing events, provided such businesses comply
with the Guidelines for All Business Sectors and the sector-specific guidelines for
racetracks expressly incorporated by reference herein and linked here and here. Such
guidance includes, but is not limited to, the following requirements:
The event must be held at locations with the ability to restrict access (i.e. barriers
and gating that would preclude the general public from accessing the event).
No tailgating and camping is allowed during these events, including staff or race
participants.
Entrances and exits must be staffed.
No spectators or members of the public are permitted to attend the event. This
includes owners, family (unless the guardian of a minor child), as well as outside
vendors. Only individuals essential to the operation of the event are permitted to
attend.
All individuals must maintain at least six feet of physical distancing between
themselves and other participants.
Prior to each race event, participants must self-monitor their symptoms by taking
their temperature to check for fever.
No public-facing amenities will be provided, including concessions, food sales,
merchandise sales, hospitality, or loitering on the property, or fan experiences.
11. Recreational and Entertainment Businesses
Outdoor performing arts venues, outdoor concert venues, outdoor sports venues, outdoor
movie theaters, museums, aquariums, zoos, and botanical gardens may reopen, provided
such businesses comply with the Guidelines for All Business Sectors and the sectorspecific guidelines, which are expressly incorporated by reference herein. Such guidance
includes, but is not limited to, the following requirement:
8

The total number of attendees (including both participants and spectators) cannot
exceed the lesser of 50% of the occupancy load of the venue, if applicable, or 50
persons.
Install visible markers for queue lines that separate people by six feet of physical
distance.
Create a guest flow plan of modified queue lines into and within the facility.
Determine areas likely to become bottlenecks or pinch points and adjust guest flow
accordingly.
Perform thorough cleaning and disinfection of frequently-contacted surfaces
including digital ordering devices, check presenters, self-service areas, tabletops,
bathroom surfaces, and other common touch areas every 60 minutes during
operation.
Where possible, install sneeze guards in front of commonly used point-of-sale or
guest service stations.
Employees working in customer-facing areas are required to wear face coverings
over their nose and mouth.
Provide hand washing or sanitizing stations for guests and employees.
If any such business cannot adhere to these requirements, it must close.
Public and private social clubs
Public and private social clubs may reopen, provided such establishments abide by the
gathering ban in section B, paragraph 2 of this Order and comply with the Guidelines for
All Business Sectors and the sector-specific guidelines for public and private social clubs
expressly incorporated by reference herein.
Recreational Sports
Indoor and outdoor recreational sports activities are permitted, provided participants and
organizers of recreational sports activities comply with the Guidelines for All Business
Sectors and the sector-specific guidelines for recreational sports expressly incorporated by
reference herein. Such guidance includes, but is not limited to, the following requirements:
a. Ten feet of physical distance must be maintained by all instructors, participants,
and spectators, with the exception of incidental contact or contact between
members of the same household. This applies during instruction and practice and

9

during competitive events. Competition that involves close contact with other
athletes must be avoided.
The total number of attendees (including both participants and spectators) of
outdoor recreational sports cannot exceed the lesser of 50% of the occupancy load
of the venue, if applicable, or 50 persons. For sports played on a field, attendees are
limited to 50 persons per field. For outdoor youth recreational sports, spectators
may not be present with the following exceptions: parents, guardians, and
caretakers who are supervising children playing in the sports event, and other
children in the parent's, guardian's or caretaker's care. Participants in
outdoor youth recreational sports are not limited to 50% of the occupancy load
of the venue or the 50 persons limit.
The total number of attendees for indoor recreational sports cannot exceed the lesser
of 30% of the lowest occupancy load on the certificate of occupancy or 50 persons.
For sports played on a field, attendees are limited to 50 persons per field.
For indoor recreational sports, spectators may not be present except parents,
guardians, or caretakers who are supervising children.
14. Enforcement
Guidelines for All Business Sectors and the sector-specific guidelines appear here. The
Virginia Department of Health shall have authority to enforce section A of this Order. Any
willful violation or refusal, failure, or neglect to comply with this Order, issued pursuant to
§ 32.1-13 of the Code of Virginia, is punishable as a Class 1 misdemeanor pursuant to §
32.1-27 of the Code of Virginia. The State Health Commissioner may also seek injunctive
relief in circuit court for violation of this Order, pursuant to § 32.1-27 of the Code of
Virginia. In addition, any agency with regulatory authority over a business listed in section
A may enforce this Order as to that business to the extent permitted by law.
B. CONTINUED RESTRICTIONS
1. Certain Recreational and Entertainment Businesses
All public access to recreational and entertainment businesses set forth below shall remain
closed:
Indoor theaters, Indoor performing arts centers, indoor concert venues, and other
indoor entertainment centers;
Historic horse racing facilities; and

10

c. Bowling alleys, skating rinks, arcades, amusement parks, trampoline parks, fairs,
carnivals, arts and craft facilities, escape rooms, and other places of indoor public
amusement.
2. All Public And Private In-Person Gatherings
All public and private in-person gatherings of more than 50 individuals are prohibited. The
presence of more than 50 individuals performing functions of their employment is not a
"gathering." A "gathering" includes, but is not limited to, parties, celebrations, or other
social events, whether they occur indoors or outdoors.
This restriction does not apply to the gathering of family members living in the same
residence. "Family members" include blood relations, adopted, step, and foster relations, as
well as all individuals residing in the same household. Family members are not required to
maintain physical distancing while in their homes.
a. Individuals may attend religious services subject to the following requirements:
Religious services must be limited to no more than 50% of the lowest occupancy
load on the certificate of occupancy of the room or facility in which the religious
services are conducted.
Individuals attending religious services must be at least six feet apart when
seated and must practice proper physical distancing at all times. Family
members, as defined above, may be seated together.
Mark seating in six-foot increments and in common areas where attendees may
congregate.
Attendees shall not pass items to other attendees, who are not family members,
as defined above.
Any items used to distribute food or beverages must be disposable, used only
once, and discarded.
A thorough cleaning and disinfection of frequently-contacted surfaces must be
conducted prior to and following any religious service.
Post signage at the entrance that states that no one with a fever or symptoms of
COVID-19 is permitted in the establishment.
Post signage to provide public health reminders regarding social distancing,
gatherings, options for high risk individuals, and staying home if sick.
If religious services cannot be conducted in compliance with the above
requirements, they must not be held in-person.
11

Further, any social gathering held in connection with a religious service is subject to the
public and private in-person gatherings restriction in section B, paragraph 2. Additional
suggested guidance can be found here.
Institutions of Higher Education
Institutions of higher education are encouraged to continue remote learning where practical.
However, such institutions may offer in-person classes and instruction, including labs and
related practical training, provided they comply with all applicable requirements under the
"Guidelines for All Business Sectors." No institutions of higher education shall hold or host
gatherings of more than 50 individuals. Any postsecondary provider offering vocational
training in a profession regulated by a Virginia state agency/board must also comply with
any sector-specific guidelines relevant to that profession to the extent possible under the
regulatory training requirements. Such professions may include, but are not necessarily
limited to: aesthetician, barber, cosmetologist, massage therapist, nail technician, and
practical nurse
Overnight Summer Camps
Overnight services of summer camps, as defined in § 35.1-1 of the Code of Virginia, must
remain closed.
Enforcement
Violations of section B paragraphs 1, 2, 3, and 4 of this Order shall be a Class 1
misdemeanor pursuant to § 44-146.17 of the Code of Virginia.
C. CONTINUED GUIDANCE AND DIRECTION
1. Essential Retail Businesses
Essential retail businesses as set out below may remain open during their normal business
hours. They should comply with the Guidelines for All Business Sectors expressly
incorporated by reference and linked here, as best practices. Employers are required to
provide face coverings to employees.
Grocery stores, pharmacies, and other retailers that sell fopd and beverage products
or pharmacy products, including dollar stores, and department stores with grocery
or pharmacy operations;
Medical, laboratory, and vision supply retailers;
Electronic retailers that sell or service cell phones, computers, tablets, and other
communications technology;

12

Automotive parts, accessories, and tire retailers as well as automotive repair
facilities;
Home improvement, hardware, building material, and building supply retailers;
Lawn and garden equipment retailers;
Beer, wine, and liquor stores;
Retail functions of gas stations and convenience stores;
Retail located within healthcare facilities;
Banks and other financial institutions with retail functions;
Pet and feed stores;
1. Printing and office supply stores; and
m. Laundromats and dry cleaners.
State Agencies
All relevant state agencies shall continue to work with all housing partners to execute
strategies to protect the health, safety, and well-being of Virginians experiencing
homelessness during this pandemic and to assist Virginians in avoiding evictions or
foreclosures.
Face Coverings
The waiver of § 18.2-422 of the Code of Virginia is continued, so as to allow the wearing
of a medical mask, respirator, or any other protective face covering for the purpose of
facilitating the protection of one's personal health in response to the COVID-19 public
health emergency declared by the State Health Commissioner on February 7, 2020, and
reflected in Amended Executive Order 51 (2020) declaring a state of emergency in the
Commonwealth. Amended Executive Order 51 (2020) remains so amended. This waiver
is effective as of March 12, 2020 and will remain in effect until 11:59pm on September
8, 2020 unless amended or rescinded by further executive order.
Further, where a mandatory business sector requirement in this Order conflicts with a
requirement to wear a face covering in Executive Order 63 and Order of Public Health
Emergency Five (2020), the business sector-specific requirement governs.

13

State Travel
Continued cessation of all official travel outside of Virginia by state employees, with
increased flexibility for inter-state commuters and essential personnel.
Exceptions
Nothing in the Order shall limit: (a) the provision of health care or medical services; (b)
access to essential services for low-income residents, such as food banks; (c) the operations
of the media; (d) law enforcement agencies; or (e) the operation of government.
Expiration of Order
Executive Order 55 (2020) shall expire at 11:59 p.m., June 4, 2020.
Second Amended 53, Third Amended Number 61 and Third Amended Order of
Public Health Emergency Three (2020) shall expire Friday, 12:00 a.m., June 12, 2020.

14

Effective Date of the Executive Order
This Order shall be effective 12:00 a.m., Friday, June 5, 2020. This Executive Order shall
remain in full force and effect until amended or rescinded by further executive order.
Given under my hand and under the Seal of the Commonwealth of Virginia and the Seal of
the Office of the State Health Commissioner of the Commonwealth of Virginia, this 9th day of
June, 2020.

Ralph S. Northam, Governor

M. Norman Oliver, MD, MA
State Health Commissioner

Attest:

17

4.111"
4-

Kelly Thomasson, Secretary of the Commonwealth

15

